Nos. 19-251, 19-255

In The
Supreme Court of the

United States
AMERICANS
FORPROSPERITYFOUNDATION,
Petitioner,

v.
XAVIERBECCERA,in his official capacity as Attorney General of the State of California,
Respondent,
-andTHOMAS MORE

LAw CENTER, Petitioner,

v.
XAVIERBECCERA,in his official capacity as Attorney General of the State of California,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Ninth Circuit

Supreme Court Rule 33.1(h) Word Count Certification
Pursuant

to Supreme

Court Rules 33.1(h) and 37, I certify that the amicus brief

filed with this certification
exempted
program

contains

2,786 words, excluding those parts of the brief

by Rule 37.5, according to the word count function of the word processing
used to prepare

Dated: September

the brief.

25, 2019
~~

Counsel of Record
MILANOVICH LAw, PLLC
100 E. Broadway Street
The Berkeley Room
Butte, Montana 59701
Ph.: 406/589-6856
Email: aymilanovich@
milanovichlaw.com

